   March 21, 2003




Infrastructure and
Environment

Public/Private Competition for the
Defense Finance and Accounting
Service Military Retired and
Annuitant Pay Functions
(D-2003-056)




              Department of Defense
          Office of the Inspector General

Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ACS                   Affiliated Computer Services
AFGE                  American Federation of Government Employees
CGA                   Continuing Government Activity
DFAS                  Defense Finance and Accounting Service
EPA                   Economic Price Adjustment
FAR                   Federal Acquisition Regulation
GAO                   General Accounting Office
GS                    General Schedule
GSA                   General Services Administration
IG DoD                Inspector General of the Department of Defense
MEO                   Most Efficient Organization
OMB                   Office of Management and Budget
           Office of the Inspector General of the Department of Defense
Report No. D-2003-056                                                    March 21, 2003
   (Project No. D2002CH-0074)

            Public/Private Competition for the Defense Finance and
                   Accounting Service Military Retired and
                           Annuitant Pay Functions

                                 Executive Summary

Who Should Read This Report and Why? Defense officials responsible for Office of
Management and Budget (OMB) Circular No. A-76 (Revised) cost comparisons should read
this report because it addresses an economic price adjustment error in the in-house cost
estimate, the need for appropriate guidance relating to Government overhead costs, and the
need for accurate contract performance requirements.
Background. In December 1997, the Defense Finance and Accounting Service (DFAS)
announced the decision to perform a public/private competition of its military retired and
annuitant pay functions and compare the cost of Government versus private sector
performance. About 650 positions at DFAS Cleveland and DFAS Denver were included in
the cost comparison process. The 2 centers processed payments totaling about $2.6 billion
per month for 2.5 million military retirees and annuitants. On June 15, 2001, DFAS
announced a tentative decision to award the contract to Affiliated Computer Services,
Government Services Inc. and after the appeal process, on September 5, 2001, the contract
was awarded to that contractor. The performance period of the contract was a 4-month
transition-in period, ten 1-year options, and a 6-month transition-out period.
On August 14, 2001, Representative Dennis J. Kucinich and three members of Congress
from Ohio sent letters urging DFAS not to finalize the contract for the military retired and
annuitant pay functions. The letters identified perceived flaws that may have marred the
cost comparison process. On September 7, 2001, the Director, DFAS disagreed with the
assertions of error or impropriety that were in the congressional request and believed it was
his obligation to move forward. On November 14, 2001, the Deputy Inspector General
stated that a fact-finding review did not indicate that OMB Circular A-76 was circumvented;
however, provisions concerning performance periods for cost comparisons were ambiguous
and subject to interpretation. On November 15, 2001, the Deputy Inspector General sent a
memorandum to the Under Secretary of Defense for Acquisition, Technology, and Logistics
recommending additional guidance relating to whether extending the performance period
beyond 5 years created a known cost advantage for the competing contractor. On
December 7, 2001, Representative Kucinich’s staff requested three additional issues be
reviewed. See Appendix B for a discussion of the specific issues and the results of this
review. Additional issues were identified that were outside the scope of the congressional
request. These issues are addressed in the findings of the report.
Results. Although the competition process was completed and the contract was awarded, a
calculation error of $31.8 million over the performance period was identified for the
in-house cost estimate; overhead costs of $33.7 million for the same period, based on the
OMB-directed 12-percent cost factor, were not reduced; and the contract had inadequate
standards to measure performance.
The consultant that prepared the military retired and annuitant pay functions in-house cost
estimate incorrectly calculated the personnel costs. In-house personnel costs for 426 of the
503 positions were incorrectly adjusted for inflation for the entire performance period
instead of only the first year. The most efficient organization development team, DFAS
management, and the Inspector General of the Department of Defense (the independent
review officer) did not detect the error and the competition was awarded to the contractor
based on a savings of $1.9 million. However, had the error been identified prior to award,
the Government’s in-house cost estimate would have been reduced by $31.8 million. DFAS
should determine a specific course of action for the current contract, to include a
determination of why a re-competition should not be held; and review and initiate
appropriate action relating to the contractor, the most efficient organization development
team, and associated management controls. Specific guidance from the Deputy Under
Secretary of Defense (Installations and Environment) would increase the likelihood that the
DoD A-76 community would properly determine whether economic price adjustments apply
to personnel positions. See finding A for details of the results and recommendations.
The DFAS in-house cost estimate included $33.7 million of “operations and general and
administrative” overhead costs that were not reduced or otherwise affected by the conversion
from in-house to contract performance. DFAS followed the procedures in the OMB Circular
A-76 Revised Supplemental Handbook and was required to use the standard 12-percent cost
factor for overhead costs because DoD did not develop and submit to OMB for approval an
accurate overhead factor for DoD. However, after award of the contract, the overhead costs
were not reduced or otherwise affected and continued to be a DFAS cost. Using the
mandatory overhead factor affected the results of the cost comparison and reducing the
overhead costs would have lowered the Government’s in-house cost estimate. A supportable
overhead rate for DoD operations and general and administrative overhead would result in
fairer cost comparisons. See finding B for details of the results and recommendations.
The DFAS contract had inadequate standards in the performance requirements summary for
7 of 10 contract performance requirements. As a result, contractor performance cannot be
fully or effectively evaluated and holding the contractor accountable for inadequate
performance is difficult. Rewriting the performance requirements summary to include all
contractor responsibilities defined in the performance work statement and reassessing the
critical elements of contract performance would permit contractor performance to be fully
and effectively evaluated. See finding C for details of the results and recommendations.
Management Comments and Audit Response. The Director, Defense Finance and
Accounting Service generally concurred with the audit findings and recommendations.
However, comments were only partially responsive because the Director did not provide
specific information on the option selected and future course of action for the military retired
and annuitant pay functions contract or when an independent review of the performance of
the most efficient organization development team would occur. The Director, Competitive
Sourcing and Privatization, Office of the Deputy Under Secretary of Defense (Installations
and Environment) concurred with providing guidance on the proper use of economic price
adjustments and disagreed with initiating any action to revise the 12-percent factor for
overhead. We do not agree that the standard factor for overhead costs is a fair estimate for
calculating overhead. We believe that DoD must develop a supportable rate or alternative
methodologies that permit activities to compute reasonable overhead cost estimates.
Accordingly, we request the Director, Defense Finance and Accounting Service and the
Director, Competitive Sourcing and Privatization provide additional comments on the final
report by April 21, 2003. See the Findings section of the report for a discussion of
management comments and the Management Comments section of the report for the
complete text of the comments.


                                               ii
Table of Contents

Executive Summary                                                         i

Background                                                                1

Objectives                                                                4

Findings
     A. Economic Price Adjustment Determination                           5
     B. Policy on Overhead Costs                                         17
     C. Contract Performance Requirements                                25

Appendixes
     A. Scope and Methodology                                            33
          Prior Coverage                                                 34
     B. Responses to Issues Raised by Congressional Inquiry              35
     C. Cost Comparison Forms                                            37
     D. Report Distribution                                              39

Management Comments
     Deputy Under Secretary of Defense (Installations and Environment)   41
     Defense Finance and Accounting Service                              43
Background
    Public/Private Competition for the Military Retired and Annuitant Pay
    Functions. In December 1997, the Defense Finance and Accounting Service
    (DFAS) announced the decision to perform a cost comparison of the military
    retired and annuitant pay functions. The cost comparison is a public/private
    competition process required by the Office of Management and Budget (OMB)
    Circular No. A-76 to compare the cost of Government performance with contract
    performance. The cost comparison included about 650 positions at 2 DFAS
    locations, about 500 positions at DFAS Cleveland and about 150 positions at
    DFAS Denver. These 2 centers processed payments totaling about $2.6 billion
    per month for 2.5 million military retirees and annuitants.

    On April 15, 1999, DFAS issued a solicitation requesting private sector proposals
    for performance of the military retired and annuitant pay functions for a 5-year
    period. However, in August of the same year, DFAS cancelled the solicitation
    due to management concerns that the performance work statement was not
    performance-based and industry concerns on complexity. On September 11,
    2000, DFAS issued another solicitation requesting proposals for performance of
    the military retired and annuitant pay functions for a 10-year period. One
    contractor, Affiliated Computer Services (ACS), Government Services Inc.
    submitted a proposal to the solicitation. The contracting officer determined that
    the contractor’s proposal was acceptable and responsive to the requirements of the
    solicitation. The contracting officer then compared the total cost of contract
    performance with the total cost of in-house performance to determine a tentative
    cost comparison decision.

    On June 15, 2001, DFAS announced the tentative decision to award the contract
    to ACS Government Services Inc. The period to file administrative appeals began
    on June 18, 2001, and ended on July 17, 2001. The American Federation of
    Government Employees (AFGE) Locals 2040 and 3283 filed an appeal. As a
    result, the Administrative Appeal Authority corrected the in-house cost estimate
    by reducing the operational personnel costs for transition by $16 million. The
    cost comparison reflected a total adjusted cost of contract performance of
    $364.7 million compared to a total cost of in-house performance of
    $366.6 million, representing a difference of $1.9 million in favor of contract
    performance. Therefore, the Administrative Appeal Authority issued its final
    decision on August 6, 2001, stating there was insufficient evidence to change the
    tentative decision. On September 5, 2001, DFAS awarded the contract to ACS
    Government Services Inc. (the contractor). The performance period of the
    contract was a 4-month transition-in period, ten 1-year options, and a 6-month
    transition-out period. The transition-in period began on September 28, 2001, was
    completed on January 27, 2002, and the contractor began the first option year on
    January 28, 2002.

    Congressional Inquiries. We performed the audit in response to inquiries made
    by Representative Dennis J. Kucinich concerning the decision to award the DFAS
    military retired and annuitant pay functions to a private contractor. On August 14,
    2001, Representative Kucinich and three members of Congress from Ohio sent
    letters to the Comptroller General, the Director of DFAS, and the Deputy


                                         1
Inspector General of the Department of Defense. The letters urged DFAS to
suspend any activity aimed at completing a contract for the military retired and
annuitant pay functions and requested the Comptroller General and the Inspector
General of the Department of Defense (IG DoD) to investigate the cost
comparison and appeal processes. The letters identified perceived flaws that may
have marred the cost comparison process. The issues raised included the
appointment of an administrative appeal authority, the extension of the
performance period from 5 to 10 years, the costing of the Directorate of
Continuing Government Activity, and the ability of the contractor to retain
in-house technical support staff.

On August 21, 2001, the Deputy Inspector General agreed to examine the issues
raised. On September 7, 2001, the Director, DFAS disagreed with the assertions
of error or impropriety that were in the congressional request and believed it was
his obligation to move forward. On November 14, 2001, the Deputy Inspector
General stated that a fact-finding review of each issue did not indicate that OMB
Circular A-76 was circumvented; however, provisions concerning performance
periods for cost comparisons were ambiguous and subject to interpretation. On
November 15, 2001, the Deputy Inspector General sent a memorandum to the
Under Secretary of Defense for Acquisition, Technology, and Logistics
recommending additional guidance on the issue of whether extending the
performance period beyond 5 years creates a known cost advantage for the
competing contractor.

On December 7, 2001, after a meeting with staff from the IG DoD, staff from
Representative Kucinich’s office sent a letter and requested three additional issues
be reviewed.

       •   The Government’s in-house cost estimate saved $15 million over the
           contractor’s cost proposal during the first 5 years of performance.

       •   An economic price adjustment clause was included in the contract.

       •   DFAS had over $70 million in unfinanced requirements for the
           military retired and annuitant pay functions.

On January 17, 2002, we announced our audit. See Appendix B for a discussion
of the specific issues and the results of the review. During the course of the audit,
additional issues were identified that were outside the scope of the original
request. These issues are addressed in the findings of the report.

OMB Circular A-76 Guidance. OMB Circular No. A-76, “Performance of
Commercial Activities,” August 4, 1983 (Revised), and OMB Circular A-76
Revised Supplemental Handbook, March 1996 (Revised), establish Federal policy
regarding the performance of recurring commercial activities. The guidance sets
forth the principles and procedures for implementing OMB Circular A-76,
including the instructions for calculating the financial advantage to the
Government of acquiring a service through in-house, contract, or inter-service
support agreement resources.




                                      2
DoD Guidance. DoD Directive 4100.15, “Commercial Activities Program,”
March 10, 1989, and DoD Instruction 4100.33, “Commercial Activities Program
Procedures,” September 9, 1985, update DoD policies, procedures, and assign
responsibilities for commercial activities as required by OMB Circular A-76. On
April 3, 2000, the Under Secretary of Defense for Acquisition and Technology
issued interim guidance to ensure DoD agencies used a consistent approach when
performing cost comparisons. The Competitive Sourcing and Privatization Office
within the Office of the Deputy Under Secretary of Defense (Installations and
Environment) Web site provides an overview of the cost comparison process.
Agencies are required to:

       •   develop and issue a solicitation in accordance with the Federal
           Acquisition Regulation (FAR) to solicit offers from the private sector;

       •   develop and submit a certified, independently reviewed in-house offer;

       •   select a single private sector offer using one of the source selection
           processes required by the FAR;

       •   compare the in-house offer with the private sector offer to determine a
           tentative cost comparison decision;

       •   perform the Administrative Appeal Process to determine a final cost
           comparison decision; and

       •   implement and manage the final decision.

The November 1997 Defense Reform Initiative Report shows that public/private
competitions for the performance of commercial activities result in costs avoided,
usually through a reduction in personnel, whether the Government or the private
sector wins the competitions.

Independent Review. OMB Circular A-76 Revised Supplemental Handbook and
DoD Instruction 4100.33 require that all cost comparisons be reviewed and
certified in writing by an impartial independent review officer organizationally
independent of the commercial activity being studied and the activity preparing
the cost comparison. The independent review is a required management control
procedure for ensuring the credibility of the most efficient organization (MEO);
the reliability and accuracy of the amounts presented on the cost comparison form;
and the credibility, impartiality, and fairness of the OMB Circular A-76 process.

The independent review officer must certify that the data contained in the
management plan and in-house cost estimate reasonably establish the
Government’s ability to perform the performance work statement with the
resources provided by the MEO and that all costs were prepared in accordance
with OMB Circular A-76 and its Supplement. On February 13, 1998, DFAS
requested that the IG DoD perform the independent reviews of five DFAS cost
comparisons, including the military retired and annuitant pay functions cost
comparison. IG DoD staff certified the in-house offer three times, on January 22,
2001, June 8, 2001, and August 6, 2001.



                                     3
Objectives
    The overall audit objectives were to review selected portions of the OMB Circular
    A-76 process and the decision to award the military retired and annuitant pay
    functions to a private contractor, and to assess related performance risks. See
    Appendix A for a discussion of the audit scope and the methodology.




                                        4
           A. Economic Price Adjustment
              Determination
           The consultant that prepared the military retired and annuitant pay
           functions in-house cost estimate incorrectly calculated the personnel costs.
           In-house personnel costs for 426 of the 503 positions were incorrectly
           adjusted for inflation for the entire performance period instead of only the
           first year. The MEO development team, DFAS management, and the
           independent review officer (IG DoD) did not detect the error and the
           competition was awarded to the contractor based on a savings of
           $1.9 million ($366.6 million minus $364.7 million). However, had the
           error been identified prior to award, the Government’s in-house cost
           estimate would have been reduced by $31.8 million.


Economic Price Adjustment Guidance
    Contracts Subject to the Service Contract Act. The Service Contract Act was
    established under sections 351 through 358, title 41, United States Code, to ensure
    that Government contractors fairly compensate their service workers.
    FAR 22.1002-2, “Wage Determinations Based on Prevailing Rates,” states:
               Contractors performing on service contracts in excess of $2,500 to
               which no predecessor contractor’s collective bargaining agreement
               applies shall pay their employees at least the wages and fringe benefits
               found by the Department of Labor to prevail in the locality or, in the
               absence of a wage determination, the minimum wage set forth in the
               Fair Labor Standards Act.

    Economic price adjustments (EPA) for labor wages and fringe benefits are
    included in the FAR. When a solicitation includes FAR 52.222-43, “Fair Labor
    Standards Act and Service Contract Act-Price Adjustment (Multiple Year and
    Option Contracts),” the contractor is required to warrant that the prices in the
    contract do not include any allowance for any contingency to cover increased
    costs for which adjustments are authorized. The clause requires contract price
    adjustments to reflect the contractor’s actual increase (or decrease) to applicable
    labor wages and fringe benefits when Department of Labor wage determinations
    are incorporated into a contract. Therefore, the contract price is only adjusted for
    the difference between what the contractor is paying before the adjustment and the
    new wage determination.

    OMB Circular A-76 Policy for In-House Wages and Salaries. In order to
    provide a level playing field between public and private offers, the in-house cost
    estimate is required to reflect similar EPA restrictions for Government labor
    wages and fringe benefits. Therefore, the in-house offer does not include inflation
    for personnel costs that are subject to an EPA beyond the end of the first
    performance period. Positions not subject to the EPA are adjusted for inflation
    consistent with the economic assumptions used in the President’s most recent
    budget through the end of the performance periods.


                                             5
    OMB Circular A-76 Revised Supplemental Handbook, Part II, “Preparing the
    Cost Comparison Estimates,” chapter 2, paragraph B. 8. states:
               All in-house wages, salaries and other costs are adjusted for inflation
               consistent with the economic assumptions used in the President’s most
               recent Budget, through the end of the first year of performance. Federal
               wages and salaries from contracts that contain an economic adjustment
               clause or are subject to the Service Contract Act (SCA) (41 USC 351-
               357) or the Davis-Bacon Act (DBA) (40 USC 276a-276a-7) are inflated
               to the end of the first performance period. However, when using the
               Department of Labor criteria, certain potential contract positions may
               not be covered under the SCA/DBA provisions; accordingly, the
               in-house related costs for such positions are escalated through the end
               of the cost comparison period.

    Cost Comparison Costing Software. DoD required that in-house cost estimates
    be prepared using costing software developed specifically for OMB Circular A-76
    cost comparisons. The DoD A-76 costing software requires each personnel
    position to be designated as either subject to an EPA or not subject to an EPA.
    When applicable, the EPA provision is marked “yes” for any MEO position that is
    equivalent to a labor category found on the Department of Labor Service Contract
    Act Directory of Occupations.


Development of the In-House Offer
    Consultant Support. DFAS contracted with a consultant, MEVATEC
    Corporation, to provide technical and analytical support to the MEO development
    team from June 12, 2000, to June 30, 2001. MEVATEC had provided consulting
    support to DoD on numerous OMB Circular A-76 cost comparisons since 1995.
    The contract required MEVATEC to interface daily with the MEO development
    team, as well as coordinate requirements with the contracting officer. This was to
    ensure that MEVATEC made corrections and adjustments to the documents as
    they were reviewed. The contract included the following technical and analytical
    support.

           •   Develop a costing methodology, including an explanation of how the
               MEO costs would be generated, processed, presented, and validated.

           •   Provide technical and administrative support to present and defend the
               costing methodology and procedures.

           •   Develop a plan for conducting the management plan.

           •   Develop the management plan, which included the MEO, the in-house
               cost estimate, the transition plan, and the technical performance plan.




                                             6
            Specifically, the contract stated:
                    The contractor shall be responsible for all IHCE [in-house cost
                    estimate] related research, compilation, analyses, and subsequent
                    assembly of all required cost forms and supporting documentation.

     Cost of Consultant Support. DFAS paid MEVATEC $218,474 to provide
     support for the military retired and annuitant pay functions cost comparison. The
     MEVATEC consulting team consisted of a project manager, three senior analysts,
     one financial analyst, and one administrative employee.

     Table 1 shows the hours worked and all associated costs for technical and
     analytical work.

                      Table 1. Consultant Hours Worked and Cost
                  Labor Category                            Hours Worked
                  Contract Project Manager                       843.0
                  Senior Cost Analyst                            210.0
                  Senior Financial Analyst                       587.0
                  Senior Financial Analyst II                    640.0
                  Financial Analyst I                             51.0
                  Administrative/Technical Support               533.5
                  Total Labor Hours                            2,864.5
                  Total Labor Costs              $217,064
                  Travel Costs                        935
                  Other Direct Costs                  475
                  Total Contract Price           $218,474


Personnel Positions Subject to an EPA
     DFAS Guidance on EPA Determination. The MEO that was developed
     consisted of 503 positions that required an EPA determination. The DFAS A-76
     study manager provided the following guidance to MEVATEC on personnel
     positions subject to an EPA:
                In accordance with the Code of Federal Regulations (29 CFR Part 541),
                professional employees (Accountants GS-510) are considered exempt
                and would not be subject to an EPA. Nonprofessional employees
                (Accounting Technicians GS-525, Accounts Maintenance Clerks
                GS-525 and Financial Assistants GS-303) are considered non-exempt
                and would be subject to an EPA.

     Based on the above guidance, the personnel costs associated with 502 positions
     should have been adjusted for inflation through the first year of the performance
     period and the personnel cost for 1 position should have been adjusted for
     inflation through the entire performance period.



                                             7
Consultant EPA Determination of Personnel Positions. MEVATEC made an
error in the in-house cost estimate and reversed the EPA determination on all
503 positions. MEVATEC classified 502 positions in the in-house cost estimate
as not subject to an EPA (coded “no” in the DoD A-76 costing software) and
classified 1 position as subject to an EPA (coded “yes”), exactly opposite of what
DFAS intended. Because of the EPA determination error, the personnel costs of
the 502 positions were adjusted for inflation through the entire performance
period instead of only the first year. Based on this EPA determination, the cost
comparison form showed a decision in favor of the contractor by $1.9 million.
See Appendix C, Table C-1.

The MEO development team, DFAS management, and the IG DoD (the
independent review officer) did not detect the error prior to DFAS submitting the
in-house offer on January 22, 2001, or on subsequent revisions. The DFAS A-76
study manager revised the in-house offer twice after the initial submission, once
because OMB required the in-house cost estimate to be updated to include the
latest inflation factors and once to adjust for the administrative appeal authority
decision. The IG DoD reviewed the in-house offer both times, and re-certified it
on June 8, 2001, and August 6, 2001, which will be discussed later in more detail.

DFAS Intended EPA Determination of Personnel Positions. The in-house cost
estimate was significantly reduced when the personnel positions were classified
with the EPA determination that DFAS originally intended. Based on an EPA
determination of 502 positions subject to an EPA (coded “yes” in the DoD A-76
costing software) and 1 position not subject to an EPA (coded “no”), the
personnel costs associated with the 502 positions were adjusted for inflation for
only the first year of the performance period. This EPA determination would have
reduced the in-house cost estimate by $42.7 million. Due to the significance of
this error, DFAS should review its consulting contract with MEVATEC and
initiate appropriate action.

Revised EPA Determination of Personnel Positions. We determined during
this audit that classifying 502 positions as subject to an EPA was also not fully
correct. Although the majority of the positions were nonprofessional, the
502 positions subject to an EPA did include some higher graded professional
positions, such as financial system specialists (General Schedule (GS)-501,
grades 11-14). We discussed the issue of EPA determination when the Service
Contract Act is applicable with the Assistant Director, Competitive Sourcing and
Privatization, Office of the Deputy Under Secretary of Defense (Installations and
Environment), who acknowledged that the EPA determination could be
confusing. The Assistant Director provided us an issue paper discussing the
Service Contract Act and the Fair Labor Standards Act. The issue paper stated
that an objective approach would be to designate personnel positions as subject to
an EPA when the position descriptions indicated the employees were not exempt
from the Fair Labor Standards Act because both the Service Contract Act and the
Fair Labor Standards Act used the same definition to exempt positions. Due to
the impact the EPA determination makes on the personnel costs in the in-house
cost estimate, guidance clarifying and emphasizing its importance needs to be
issued to the DoD A-76 community.




                                     8
Using the approach identified in the issue paper, we reviewed all personnel
positions in the in-house cost estimate. We determined that 426 positions were
not exempt from the Fair Labor Standards Act and, therefore, would be subject to
an EPA (coded “yes” in the DoD A-76 costing software). At the same time,
77 positions were exempt from the Fair Labor Standards Act, and, therefore, were
not subject to an EPA (coded “no”). We discussed our analysis and revised EPA
determinations with DFAS and reached agreement on the revised EPA
determination of the 503 positions in the in-house cost estimate. Based on this
revised EPA determination, the total cost of in-house performance was
$334.8 million and total adjusted contractor cost was $364.7 million, a difference
of $29.9 million. See Appendix C, Table C-2.

For the revised cost comparison in Table C-2, Figure 1 shows that the cumulative
annual cost difference between the in-house cost estimate and the contractor
proposal (excluding
              ∗
                     the $10 million conversion differential) favors the in-house
cost estimate. The figure in Appendix B shows the cumulative annual cost
difference between the in-house cost estimate and the contractor proposal without
the EPA corrections.



                               25

                               20
       Dollars (in millions)




                               15

                               10

                                5

                                0
                                    Trans.   1   2   3       4   5    6    7      8    9     10
                                                     Performance Period (Years)

Figure 1. Cumulative Annual Cost Difference Between the In-House Cost
Estimate With the Revised EPA Determination and the Contractor Proposal
Favors the In-House Cost Estimate




∗
    The $10 million conversion differential was established to ensure that the Government did not
    undertake a conversion for marginal estimated savings. Factors such as decreased productivity
    and other costs of disruption that cannot be easily quantified at the time of the cost comparison
    are included in this differential.
                                                         9
Reviews and Certifications of In-House Cost Estimate
     DFAS Management Reviews. The MEO development team worked in
     conjunction with MEVATEC to develop the management plan and in-house cost
     estimate, and should have reviewed the work to ensure its accuracy. OMB
     Circular A-76 requires a technically competent individual who is either
     organizationally independent of the function under competition or at least two
     levels above the most senior official included in the in-house cost estimate to
     certify the management plan as reflecting the Government’s MEO. The Director,
     Pay System, Military and Civilian Pay Services certified on January 19, 2001, the
     in-house MEO for the military retired and annuitant pay functions cost
     comparison. The certification stated:
                I certify that to the best of my knowledge and belief, the in-house
                organization reflected in this cost comparison is the most efficient and
                cost effective organization that is fully capable of performing the scope
                of work and tasks required by the Performance Work Statement. I
                further certify that I have obtained from the appropriate authority
                concurrence that the organization structure, as proposed can and will be
                fully implemented, subject to this cost comparison, in accordance with
                all applicable Federal regulations.

     In addition, the cost comparison form shows the DFAS A-76 study manager
     prepared the in-house cost estimate. DFAS was required by OMB to develop the
     in-house cost estimate again to reflect changes to inflation factors in the
     President’s budget. On June 8, 2001, the in-house offer was re-certified by
     DFAS. The final certification was signed on August 3, 2001, based on revisions
     made to the in-house cost estimate during the appeal process. The EPA
     determination error in the in-house cost estimate was not detected during any of
     these reviews and certifications. DFAS should review the performance of the
     MEO development team and associated management controls and initiate
     appropriate action. An office independent of the DFAS A-76 function should
     perform this review. In addition, DFAS should provide training to individuals
     involved in the cost comparison process on the proper determination of EPA to
     personnel positions.

     Independent Review Officer. OMB Circular A-76 Revised Supplemental
     Handbook and DoD Instruction 4100.33 require that all cost comparisons be
     reviewed and certified in writing by an impartial independent review officer. The
     review is a required management control procedure for ensuring the credibility of
     the MEO; the reliability and accuracy of the amounts on the cost comparison
     form; and the credibility, impartiality, and fairness of the OMB Circular A-76
     process.

     From November 8, 2000, through January 22, 2001, the IG DoD conducted the
     independent review of the military retired and annuitant pay functions cost
     comparison. Prior to certifying the in-house offer on January 22, 2001, IG DoD
     staff identified three adjustments to the in-house cost estimate, which along with
     DFAS extending the transition period from 6 to 8 months, resulted in the in-house



                                              10
cost estimate increasing by $25.5 million. Specifically, IG DoD Report
No. D-2001-167, “Independent Review of the Cost Comparison Study of Military
Retired and Annuitant Pay Functions,” August 2, 2001, identified the following
adjustments to the in-house cost estimate that required DFAS correction prior to
certification.

       Location of DFAS Employees. The management plan indicated that
11 DFAS employees would remain at DFAS Denver during the initial period of
performance, but the in-house cost estimate was based on an MEO entirely at
DFAS Cleveland. Because the Denver area had a higher cost of living adjustment
than Cleveland, the in-house cost estimate increased.

        DFAS Automated Support Employees. The DFAS in-house cost
estimate included the cost of 43 employees as additional costs (line 7 of the cost
comparison form) that should have been included as personnel costs (line 1 of the
cost comparison form). Because the line 7 costs did not include fringe benefit
factors for the personnel involved or affect the overhead and insurance factors,
moving the personnel to line 1 increased the in-house cost estimate.

        Employee Salary Rates. DFAS did not use the 2001 GS salary rates
effective January 7, 2001, to prepare the in-house cost estimate.

As the independent review officer, the Director, Contract Management
Directorate, IG DoD, certified on January 22, 2001, and on June 8, 2001, that all
costs were prepared in accordance with OMB Circular A-76 requirements.
           I certify that I have reviewed the Performance Work Statement,
           Management Plan, In-House cost estimates and supporting
           documentation available prior to bid opening, and to the best of my
           knowledge and ability have determined that: (1) the ability of the
           in-house MEO to perform the work contained in the Performance Work
           Statement at the estimated costs included in this cost comparison is
           reasonably established, and (2) that all costs entered on the cost
           comparison have been prepared in accordance with the requirements of
           the Circular A-76 and its Supplement.

The EPA determination error in the in-house cost estimate was not detected
during any of the IG DoD reviews and certifications. IG DoD Report
No. D-2001-167 also incorrectly stated the individual costs associated with the
three adjustments. Although the total increase of $25.5 million to the in-house
cost estimate was accurate, the individual costs associated with the three
adjustments were not. In addition, the report incorrectly stated the costs
associated with extending the transition period from 6 to 8 months. It is difficult
to calculate the costs individually because the adjustments may affect each other,
depending on the order in which they were made. Therefore, based on the EPA
determination error and the individual adjustment cost errors, IG DoD Report
No. D-2001-167 was retracted.

Administrative Appeal Authority. An administrative appeal is a challenge to a
cost comparison decision based on asserted errors in the cost comparison process.
To be considered an eligible appeal, the issues must be raised by eligible


                                      11
    appellants, meet criteria established in the OMB Circular A-76 Revised
    Supplemental Handbook, and be submitted in writing to the contracting officer
    prior to the end of the public review period.

    On July 6, 2001, AFGE Locals 2040 and 3283 filed an appeal of the cost
    comparison decision. The appeal discussed 10 issues:

           •   attribution of transition costs to the MEO,

           •   extension of the period of performance,

           •   computation of the minimum cost differential figure,

           •   inclusion of inherently Government functions,

           •   training costs charged to the MEO,

           •   union involvement,

           •   validation of in-house estimates,

           •   presence of the union at bid opening,

           •   notification of award to the union and contractor, and

           •   a perceived conflict of interest.

    The Administrative Appeal Authority reviewed the 10 issues and agreed with the
    appeal issue on the transition costs and decided that only incremental costs
    associated with the transition should be included rather than the full cost of
    operation during the transition period. The proposed cost reduction was not
    sufficient to change the outcome of the competition. Because the EPA
    determination error was not raised during the appeal process, it was not reviewed
    at that time. The IG DoD performed the independent review of the administrative
    appeal authority adjustments and certified the in-house cost estimate on August 6,
    2001, after identifying three adjustments related to the MEO appeal that decreased
    the in-house cost estimate by $18,881.


Actions Taken by IG DoD Management
    Identification of the EPA Determination Error. On March 21, 2002, the audit
    team informed IG DoD management that the EPA determination error was not
    identified during the independent review process. On March 25, 2002, the Acting
    Assistant Inspector General for Auditing tasked the Deputy Assistant Inspector
    General for Audit Policy and Oversight to independently determine how the
    auditors that performed the independent reviews handled the issue of applying an
    EPA to personnel positions subject to the Service Contract Act. The Deputy
    Assistant Inspector General for Audit Policy and Oversight issued a memorandum
    and agreed that an EPA was incorrectly applied to personnel positions subject to


                                         12
    the Service Contract Act on the military retired and annuitant pay functions cost
    comparison. The memorandum also stated that although there was evidence of
    supervisory review, neither the auditor nor the supervisor recognized the incorrect
    coding of personnel positions subject to an EPA in the DoD A-76 costing
    software.

    The Deputy Assistant Inspector General for Audit Policy and Oversight
    recommended that the audit steps in the IG DoD Audit Guide for Independent
    Review of OMB Circular A-76 Studies be revised to clearly show the reason the
    audit steps are being performed. In addition, the report recommended that an
    audit step be added to request documentation to show that each position was
    analyzed to determine if it was subject to an EPA. The Director, Contract
    Management Directorate, IG DoD, concurred with the recommendations and
    revised the audit guide accordingly.

    Subsequently, on August 29, 2002, the Deputy Assistant Inspector General for
    Auditing requested that the Deputy Assistant Inspector General for Audit Policy
    and Oversight further review the performance of the independent review audit
    team. In a memorandum dated December 31, 2002, the Deputy Assistant
    Inspector General for Audit Policy and Oversight identified the need to address
    scope limitations and quality assurance processes especially oriented towards
    issuance of an independent review certification. On January 3, 2003, the Deputy
    Assistant Inspector General for Auditing directed that guidance be issued that
    addressed possible scope limitations and quality assurance processes. The
    guidance was implemented on February 7, 2003.

    On December 13, 2002, the IG DoD requested the Inspector General for the
    General Services Administration (GSA) to independently review the issue. On
    February 20, 2003, the IG GSA issued a letter to the IG DoD that identified
    shortcomings in practice that substantially lessened the likelihood that the audit
    work would have detected the EPA determination errors made by agency
    management. The letter also stated that the IG DoD internal inquiries that
    identified the EPA error and the shortcomings in practice were thorough and
    credible.


Conclusion
    DoD relies on OMB Circular A-76 public/private competitions to promote cost
    savings and increase the quality of service. An error was made in the DFAS
    military retired and annuitant pay functions cost comparison with respect to the
    determination of personnel positions subject to an EPA. Had this error been
    detected prior to the in-house offer submission, the in-house cost estimate would
    have decreased by $31.8 million. The correct EPA determination may have
    changed the outcome of the cost comparison decision and retained the military
    retired and annuitant pay functions in-house. We believe it is the responsibility of
    DFAS to consider the results of this audit and to decide a future course of action
    on the military retired and annuitant pay functions contract, to include a
    determination of why a re-competition should not be held.



                                         13
    It appears that the accelerated process of the public/private competition and the
    reverse logic of EPA determination impacted this cost comparison. The DoD
    A-76 costing software requires each personnel position to be designated as either
    subject to an EPA or not subject to an EPA. When the EPA determination is
    “yes,” this means that “no” inflation is applied after the first performance period.
    When the EPA determination is “no,” this means that “yes” inflation is applied to
    all performance periods. This “yes-no” reverse logic creates unnecessary
    confusion and can lead to incorrect data entry. Because of this, the DoD A-76
    costing software used for cost comparisons should be modified to include an
    explanation of how the positions will be adjusted for inflation when a “yes” or
    “no” is selected for EPA determination.


Management Comments on the Finding and Audit Response
    Management Comments on Estimated Savings. The Director, DFAS concurred
    that the in-house cost estimate would have decreased by $31.8 million if the
    correct EPA determination were used. However, he stated that the OMB Circular
    A-76 public/private competition process relies significantly on estimates and cost
    factors to compare the cost of public versus private performance of commercial
    activities, and that while the result of a cost comparison provides agencies with a
    basis upon which to make an award, the in-house cost estimate is not an absolute
    statement of the actual costs of performance. Therefore, he requested that the
    specific savings estimate be deleted from the report.

    Audit Response. We stated that the correct EPA determination may have
    changed the outcome of the competition and reduced DoD costs over the
    performance period of the contract. While we agree with the Director, DFAS that
    the OMB Circular A-76 public/private competition process relies significantly on
    calculations and cost factors, we do not agree that savings cannot be calculated
    based on the cost comparison study. Figure 1 shows the annual cumulative cost
    difference between the contractor proposal and in-house costs estimate corrected
    for the EPA error. DFAS has the flexibility to not elect to exercise contract
    options and take alternative actions that will affect costs.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    Recommendation A.1.a. to clarify our intention that DFAS provide detailed
    information on a specific course of action for the retired military and annuitant
    pay functions contract.




                                         14
A.1. We recommend that the Director, Defense Finance and Accounting
Service:

      a. Determine a specific course of action for the military retired and
annuitant pay functions contract, to include a determination of why a
re-competition should not be held.

Management Comments. The Director, Defense Finance and Accounting
Service concurred and stated all available options would be evaluated to decide a
future course of action that was cost effective and provide the best service
possible for retired military and annuitant pay customers.

Audit Response. Although the Director concurred, he did not provide any
specific information on the future course of action that was cost effective and
would provide the best service possible for retired military and annuitant pay
customers. Therefore, we ask that the Director provide additional comments in
response to the final report specifically identifying the selected option and future
course of action, to include a determination of why a re-competition should not be
held.

       b. Review contract MDA220-99-A-0025 and initiate appropriate
action with the consultant that provided technical and analytical support on
the military retired and annuitant pay functions cost comparison.

Management Comments. The Director, Defense Finance and Accounting
Service concurred and stated that DFAS would review available legal options and
determine appropriate actions. On March 5, 2003, DFAS stated they will assert
the remedies that are afforded under the terms of the contract.

       c. Review the performance of the most efficient organization
development team for the military retired and annuitant pay functions cost
comparison and associated management controls and initiate appropriate
action. An office independent of the Defense Finance and Accounting
Service A-76 function should perform this review.

Management Comments. The Director, Defense Finance and Accounting
Service concurred and stated that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer directed a review on September 13, 2002.
DFAS stated the review included all aspects of the retired and annuitant pay cost
comparison and provided the report to the Under Secretary of Defense
(Comptroller)/Chief Financial Officer on October 1, 2002. On February 27, 2003,
DFAS provided a copy of the review and a list of all completed actions.

Audit Response. We consider the comments to be partially responsive. The
review was not performed by an office independent of the A-76 function and did
not include a review of the performance of the most efficient organization
development team, as recommended. Therefore, we ask that the Director provide
additional comments in response to the final report.




                                     15
       d. Provide training to A-76 study managers, contracting officers, and
members of future management plan teams on the proper determination of
the economic price adjustment to personnel positions in the in-house cost
estimate.

Management Comments. The Director, Defense Finance and Accounting
Service concurred and stated specific training will be provided to all affected
participants on how to determine whether positions are subject to an economic
price adjustment and the impact of the adjustment on computing personnel costs.
In addition, the Director stated that DFAS has updated the Lessons Learned
database and developed a Management Plan Certification Checklist and a DFAS
Pre-Independent Review requirement to ensure the economic price adjustment is
properly applied.

A.2. We recommend that the Deputy Under Secretary of Defense
(Installations and Environment):

       a. Issue guidance to the DoD A-76 community clarifying how to
properly determine whether economic price adjustments apply to personnel
positions that are subject to the Service Contract Act and emphasize the
importance of correctly applying the economic price adjustment in the
in-house cost estimate.

Management Comments. The Director, Competitive Sourcing and Privatization,
Office of the Deputy Under Secretary of Defense (Installations and Environment)
concurred and stated that the policy for applying inflation must be improved. The
Director suggested to OMB that they consider that economic price adjustments for
Government employee positions be based on the applicability of the Fair Labor
Standards Act and not the Service Contract Act, which is applicable only to the
private sector. The Director stated the update to DoD A-76 related regulations
would begin when OMB publishes the revised Circular.

        b. Modify the DoD A-76 costing software used for cost comparisons
to include an explanation of how the most efficient organization positions will
be adjusted for inflation when “yes” or “no” is selected for the economic
price adjustment determination.

Management Comments. The Director, Competitive Sourcing and Privatization
concurred and stated that the DoD A-76 costing software currently has four
separate features or check points for flagging or assisting with economic price
adjustment designations. The Director stated that when the software is updated
based on the requirements in the revised Circular, additional improvements would
be investigated.




                                   16
           B. Policy on Overhead Costs
           The DFAS in-house cost estimate included $33.7 million of “operations
           and general and administrative” overhead costs that were not reduced or
           otherwise affected by the conversion from in-house to contract
           performance. DFAS followed the procedures in the OMB Circular A-76
           Revised Supplemental Handbook and was required to use the standard
           12 percent cost factor for overhead costs because DoD did not develop and
           submit to OMB for approval an accurate overhead factor for DoD.
           However, the overhead costs were not reduced or otherwise affected and
           continued to be a DFAS cost. Using the mandatory overhead factor
           affected the results of the cost comparison and reducing the overhead costs
           would have lowered the Government’s in-house cost estimate.


Overhead Guidance
    OMB Circular No. A-76 Revised Supplemental Handbook, Part II, “Preparing the
    Cost Comparison Estimates,” provides cost comparison guidance to comply with
    the provisions of the Federal Activities Inventory Reform Act and OMB Circular
    A-76.

    Chapter 2, “Developing the Cost of Government Performance,” section E,
    “Overhead, Line 4,” paragraphs 2. and 3. state:
               2. Line 4 includes two major categories of cost. The first is operations
               overhead and is defined as those costs that are not 100 percent
               attributable to the activity under study, but are generally associated with
               the recurring management or support of the activity. The second is
               general and administrative overhead and includes salaries, equipment,
               space and other activities related to headquarters management,
               accounting, personnel, legal support, data processing management and
               similar common services performed outside the activity, but in support
               of the activity. These costs are affected by the conversion of work to
               or from in-house, contract or ISSA [interservice support
               agreements]. [Emphasis added.]

               3. For each year of the cost comparison, Line 4 is calculated by
               multiplying Line 1, including fringe, by 12 percent (.12) and entering
               the total on Line 4. If military personnel are included in Line 1, apply
               the 12 percent factor to civilian MEO Line 1 costs only. The composite
               military rate should include all military related overhead.

    Chapter 2, section A, “General,” paragraph 2., “Standard Cost Factors,” states:
               Standard cost factors are to be used as prescribed in this Part. Agencies
               are encouraged to collect agency or sector-specific data to update and
               improve upon the standard cost factors provided herein. The official in




                                             17
           paragraph 9.a. of the Circular, or designee, may develop alternative
           agency-wide or sector-specific standard cost factors, including
           overhead, for approval by OMB.

The OMB Circular A-76, paragraph 9.a. official is responsible for implementation
of the A-76 Circular and the Revised Supplemental Handbook and is generally at
the assistant secretary or equivalent level within the agency. Within DoD, the
official responsible for implementation of the OMB Circular A-76 is the Deputy
Under Secretary of Defense (Installations and Environment).

Operations Overhead. The OMB Circular A-76 Revised Supplemental
Handbook defines operations overhead as those costs that are not 100 percent
attributable to the activity that is undergoing a cost comparison, but are generally
associated with the recurring management or support of the activity. DoD
Instruction 4100.33, “Commercial Activities Program,” September 9, 1985,
(incorporating through change 3, October 6, 1995) provides guidance that states
“overhead costs shall be computed only when such costs will not continue in the
event of contract performance.” Specifically, it states:
           To compute operations overhead cost for the supervisory work center
           one level above the function under study, determine if at least one
           position would be eliminated in the supervisory work center as a result
           of conversion to contract if not, operations overhead is zero.

General and Administrative Costs. The OMB Circular A-76 Revised
Supplemental Handbook defines general and administrative overhead as including
salaries, equipment, space, and other activities related to headquarters
management, accounting, personnel, legal support, data processing management,
and similar common services performed outside the activity, but in support of the
activity. DoD Instruction 4100.33 states:
           To compute G&A [general and administrative] costs, first list all
           activities internal to the installation that provide defineable support to
           the function under study, excluding operations overhead. Next, list
           those activities external to the installation which provide general or
           administrative support not available on the installation and which are
           essential to the operation of the function under study. Within each of
           these activities determine if there could be at least one position or
           overtime eliminated as a result of conversion to contract. If not, G&A
           overhead is zero. If positions could be eliminated, compute personnel
           costs per paragraph D, and other cost solely in support of those
           positions which would be eliminated.

DoD Interim Guidance on Costing. DoD issued interim guidance on calculating
costs for the OMB Circular A-76 cost comparison process. DoD 4100.XX-M,
“A-76 Costing Manual,” March 14, 2001, chapter 4, “Line 4, Overhead Costs,”
paragraphs C4.1.1. and C4.1.2. state:
           C4.1.1. This line represents 12% of Line 1, Civilian Personnel Costs,
           (including MEO subcontract QAEs [quality assurance evaluators] and
           contract administrators) to estimate overhead costs associated with




                                         18
               operations of the CA [commercial activity] being competed that (based
               on application of the policy specified in paragraph C1.1.2.) are not
               captured on Line 1 for the MEO.

               C4.1.2. The standardized rate accommodates overhead costs that are
               not necessarily visible to the CA or installation, but are clearly included
               in and provided by the Department’s budget and represents costs that
               are comparable to those that a contractor must include, such as
               allocations for Chief Executive Officers, headquarters management
               support staff, etc. [Emphasis added.] This factor includes costs that
               are not 100% attributable to the CA being competed but are generally
               associated with the recurring management or support of the CA. Use of
               the rate avoids a requirement to develop detailed allocations of all
               management and support costs within DoD and as provided by the
               Government at large to the commercial activity being competed.



DFAS General and Administrative Costs
    DFAS general and administrative costs were not affected by the conversion of
    work from in-house to contract performance for the military retired and annuitant
    pay functions. The DoD A-76 costing software used for cost comparisons
    automatically multiplied Line 1 personnel costs by 12 percent to include
    $33.7 million on Line 4, overhead costs, in the in-house cost estimate, as required
    by OMB Circular A-76 (Appendix C, Table C-1). We reviewed DFAS general
    and administrative cost data for the Financial Operations Working Capital Fund
    for FYs 1998, 1999, 2000, 2001, and for the months of October 2001 through
    March 2002. Specifically, we reviewed DFAS general and administrative
    overhead expense categories and found no relationship or any instances where
    general and administrative costs would be reduced by the conversion of work
    from in-house to contract performance.

    Table 2 shows the cost categories for DFAS general and administrative expenses
    and the total DFAS direct costs for FY 2001. For DFAS to recover general and
    administrative expenses of $280.1 million, it would have to apply a 22.1 percent
    cost recovery rate to its direct costs of $1,267 million.




                                              19
      Table 2. DFAS General and Administrative Expense Costs for FY 2001

                                                    Dollars               Percent
   Category                                        (millions)      Expenses Direct Costs
Labor and Benefits                                   $128.1          45.7        10.1
Other Services                                         79.5          28.4         6.3
Rents, Communications, Utilities                       26.3           9.4         2.1
Other Costs-Depreciation                               23.2           8.3         1.8
Equipment                                                8.8          3.1         0.7
Supplies and Materials                                   6.2          2.2         0.5
Travel                                                   5.6          2.0         0.4
Printing and Reproduction                                1.3          0.5         0.1
Transportation                                           0.9          0.3         0.1
Interest and Dividends                                   0.2          0.1         0.0

    Total General and Administrative Expenses $280.1                100.0       22.1
    Total Direct Costs                       $1,267.0



Labor and Benefits. The labor and benefits category represents the highest
percentage of DFAS general and administrative costs, at 45.7 percent. As of
October 2001, the DFAS headquarters organization consisted of 351 personnel in
16 offices.

We reviewed 5 DFAS offices and interviewed DFAS staff in 4 of the offices,
representing 226 personnel, or 64 percent of the total headquarters organization.
DFAS staff could not identify any functions, personnel, or other costs that would
be eliminated or reduced due to the award of the contract for the military retired
and annuitant pay functions.

Table 3 shows the offices reviewed and number of personnel assigned.

Table 3. Offices Reviewed Within the DFAS Headquarters Organization
 Office                                                Personnel     Percent of Headquarters
Accounting                                                 66                  18.8
Finance                                                    66                  18.8
Systems Integration*                                       42                  11.9
Human Resources                                            27                   7.7
Information and Technology                                 25                   7.1

    Subtotal                                             226                  64.3
     Total Headquarters Organization                     351

*
    Declined to be interviewed; stated they were not affected.

Other Services. The other services category represents 28.4 percent of the
general and administrative costs. This category includes contract studies and




                                             20
    analyses, and professional and managerial services provided by contractors.
    These services would still be incurred by DFAS regardless of contracting the
    military retired and annuitant pay functions.

    Rents, Communications, Utilities. The rents, communications, and utilities
    category is the third highest percentage of DFAS general and administrative
    expenses at 9.4 percent. We found no instance where these costs would be
    reduced. In addition, although in-house costs relating to rent, communications,
    and utilities for the military retired and annuitant pay functions were included in
    the DFAS general and administrative costs, these costs were considered common
    costs for the cost comparison process. Consequently, as provided by DoD
    Instruction 4100.33, these common costs would be provided to both the contractor
    and in-house team and are considered equal for both teams.

    Other Costs-Depreciation. The other costs-depreciation category represents
    8.3 percent of DFAS general and administrative expenses. Depreciation is
    measuring the decrease in value of an asset. Again, these costs were not affected
    at the DFAS headquarters level by contracting out the military retired and
    annuitant pay functions and were the same for the in-house and contractor teams
    because DFAS provides the facilities to the contractor.


General Accounting Office
    The General Accounting Office (GAO) addressed the basis for the OMB
    requirement that a standard 12 percent overhead rate be applied to in-house cost
    estimates, regardless of the type of commercial activity or where in the country
    the activity is to be performed. GAO Report No. GAO/NSIAD-98-62, “Defense
    Outsourcing: Better Data Needed to Support Overhead Rates for A-76 Studies,”
    February 1998, stated that OMB required that Government agencies include
    overhead costs in their in-house cost estimates prior to the adoption of a standard
    rate in March 1996. However, GAO stated that overhead costs, particularly
    general and administrative costs, were not included in some of the Government
    estimates because they were difficult to quantify and allocate to specific activities.
    When agencies did include overhead costs, they generally ranged from 1 to
    3 percent of the direct labor costs. The report also stated:
               Because actual cost data in Government agencies have historically
               been unavailable and unreliable, OMB told us it lacked meaningful
               information on which to develop a standard overhead rate or to
               differentiate between particular types of activities or regions of the
               country. Absent this data, OMB selected a single overhead rate of
               12 percent, a rate that was near the midpoint of overhead rates
               suggested by Government agencies and private sector groups. … While
               the 12 percent rate represents an appropriate move toward including
               overhead costs in government cost estimates, until actual overhead costs
               are captured, the magnitude of savings expected will be uncertain and
               the results of A-76 studies are apt to continue to be controversial.




                                            21
Policy on Overhead Costs
    OMB Circular A-76 guidance generally addresses operations overhead while the
    DoD Interim A-76 Costing Manual states that the standard rate for overhead
    includes costs comparable to those that a contractor must include, such as
    allocations for Chief Executive Officers and headquarters management support
    staff. Technically, this means that in-house performance costs should include
    costs associated with the Director of DFAS. This rationale appears questionable
    because when a contractor wins a competition, these Government overhead costs
    may not be eliminated and, therefore, the Government may continue to pay them.
    However, when the in-house team wins the competition, the Government does not
    pay these overhead costs for the contractor. The Deputy Under Secretary of
    Defense (Installations and Environment) should perform a study to identify and
    quantify those overhead costs that are affected by the conversion from in-house to
    contractor performance and clarify its guidance to provide that unaffected
    overhead costs will not be included in operations and general and administrative
    overhead costs. For example, Table C-1 shows a cost comparison decision in
    favor of the contractor by $1.9 million; however, the in-house costs include
    $33.7 million of overhead costs that may not be affected by the conversion to
    contract.

    OMB Circular A-76 guidance on general and administrative overhead costs is less
    vague, stating that these costs are affected by the conversion from in-house to
    contract. The Deputy Under Secretary of Defense (Installations and Environment)
    needs to either establish a reasonable and supportable rate for operations and
    general and administrative overhead and submit the rate to OMB for approval and
    use or preferably, obtain OMB approval of alternative methodologies that permit
    activities to determine appropriate overhead cost reductions that will be included
    in the Government’s in-house cost estimate for use in future OMB Circular A-76
    cost comparison studies instead of using the standard 12 percent cost factor.


Industry Make or Buy Decisions
    We contacted a major Defense contractor and reviewed its policy for make or buy
    decisions to determine whether general and administrative overhead costs were
    applied to the costs of a “make” item. The contractor representative responsible
    for developing the make or buy process stated that general and administrative
    overhead costs of the organization were generally not included in the make costs
    because these costs remained basically the same regardless of the decision.
    However, if specific general and administrative costs that would be reduced or
    eliminated based on a buy decision were identified, these costs would be factored
    in the make or buy decision.




                                        22
Conclusion
    Two of the key premises of the OMB Circular A-76 cost comparison studies are
    fairness of the competitions and achieving realistic cost savings. These premises
    can only be realized when supportable cost data are used for the cost comparison
    decisions and when all costs associated with either in-house or contractor
    performance are eliminated depending on the winner of the competition. If in fact
    these operations and general and administrative overhead costs are not eliminated
    when a contractor wins a competition, there would be skepticism about the
    fairness of the competition and achieving realistic cost savings. In this OMB
    Circular A-76 public/private competition—even though DFAS fully complied
    with OMB and DoD guidance on the use of the overhead factor—the use of the
    12 percent overhead factor affected the results of the cost comparison and DFAS
    managers were not empowered to make a sound and justifiable business decision.


Management Comments on the Finding and Audit Response
    Management Comments on the Standard Overhead Factor. The Director,
    Competitive Sourcing and Privatization, Office of the Deputy Under Secretary of
    Defense (Installations and Environment) stated that he was comfortable with the
    compromise used by OMB to arrive at the 12 percent factor and believes it is a
    fair estimate that standardizes the approach for calculating overhead. He further
    stated that since 1996, when OMB issued the 12 percent overhead policy, no DoD
    Component has pursued the use of a different rate and that a study of such costs is
    as likely to result in a higher rate as in a lower rate.

    Audit Response. In the competitive sourcing process, all significant in-house
    costs are researched, identified, and supported except for overhead. There is
    absolutely no data to support 12 percent as a realistic cost rate. As a result,
    multimillion-dollar decisions are based, in part, on a factor not supported by data.


Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Deputy Under Secretary of Defense (Installations
    and Environment):

            1. Perform a study to identify and quantify those overhead costs that
    are affected by the conversion from in-house to contractor performance and,
    in conjunction with the Office of Management and Budget, clarify guidance
    so that unaffected overhead costs will not be included in operations and
    general and administrative overhead costs.

    Management Comments. The Director, Competitive Sourcing and Privatization
    nonconcurred stating that during development of the revised OMB Circular A-76,



                                         23
he discussed with OMB the IG DoD concerns regarding the overhead factor and
the guidance in the current Circular. The results of these discussions are reflected
in the proposed revision to the Circular issued in the Federal Register on
November 14, 2002. He further stated that in the near future, his emphasis and
efforts will be focused on the development of DoD policies and procedures to
implement the significant changes in the Circular.

Audit Response. We consider the Director, Competitive Sourcing and
Privatization comments to be nonresponsive. The proposed revision to the
Circular still includes the 12 percent factor that is unsupportable. Therefore, we
ask that he reconsider his position and provide additional comments in response
to the final report.

       2. Either develop a supportable rate for DoD operations and general
and administrative overhead or develop alternative methodologies that
permit activities to compute reasonable overhead cost estimates instead of
using the standard 12 percent cost factor in Office of Management and
Budget Circular A-76 cost comparison studies, and submit to the Office of
Management and Budget for approval and use.

Management Comments. The Director, Competitive Sourcing and Privatization
nonconcurred but stated he will consult with DFAS to determine if a study is
feasible for an alternate approach to determine the overhead factor for purposes of
public-private competition. However, he stated such a study would require
working with OMB, an approach consistent with the overhead policies stated in
the revised Circular, and the development of a single DoD overhead rate to be
used by all DoD Components because based on his past experiences with non-
standard rates or calculations, he would not support a non-standard DoD overhead
rate or method to calculate overhead.

Audit Response. The Director, Competitive Sourcing and Privatization
comments do not address a major cost issue that can affect numerous competitive
sourcing decisions. We are unaware of any other contracting process that permits
using a factor of 12 percent of personnel costs, as overhead is calculated, that is
not supported by any data. Unless DoD develops a supportable rate or an
alternative method to calculate a fair and reasonable rate, the results of future
competition will be questionable. Therefore, we ask that he reconsider his
position and provide additional comments in response to the final report.




                                     24
           C. Contract Performance Requirements
           The DFAS contract for the military retired and annuitant pay functions had
           inadequate standards in the performance requirements summary for 7 of
           10 contract performance requirements. This occurred because five
           performance requirements did not accurately correlate to the contractor
           responsibilities defined in the performance work statement. In addition,
           two of the key performance requirements relating to customer service were
           not measurable and were not identified as critical elements of the contract.
           DFAS evaluated contractor performance on the three adequate standards
           as well as one of the inadequate standards and the contractor was deficient
           on three of the four evaluated standards. As a result, contractor
           performance could not be fully or effectively evaluated and holding the
           contractor accountable for inadequate performance would be difficult.


Establishing Performance Requirements
    The DFAS performance work statement team developed the performance
    requirements summary. The requirements within the summary were established
    to measure the essential work of the performance work statement that would need
    to be completed in order to effectively maintain the pay accounts for military
    retirees and their annuitants. DFAS stated the performance requirements and
    acceptable quality levels were derived and validated against the performance
    requirements that DFAS established in its performance contract with the Defense
    Management Council as expectations for performance by DFAS in FY 2000
    through FY 2005. The solicitation identified 11 performance requirements to
    evaluate contractor performance. However, depending on whether the contractor
    chose to use Government-provided systems, contractor-provided systems, or a
    combination of both to do the work, not all performance requirements were
    applicable. Based on the contractor’s choice to use the Government-provided
    systems, only 10 performance requirements in the performance requirements
    summary were applicable.

    The DFAS Continuing Government Activity (CGA) was established to oversee
    the quality of work provided by the contractor and was responsible for conducting
    monthly evaluations. The monthly evaluations consisted of reviewing contract
    performance on the 10 applicable performance requirements. The CGA
    coordinates with the contracting officer and is the Government point of authority
    for any deviations, corrective actions, complaints, or other issues relating to the
    contractor.


Performance Standards
    The DFAS contract for the military retired and annuitant pay functions had
    inadequate standards for 7 of 10 contract performance requirements. Five
    performance requirements did not accurately correlate to the contractor


                                        25
responsibilities defined in the performance work statement and two performance
requirements were not measurable and were not identified as critical elements of
the contract.

Correlation of Contract Performance Requirements. Five of the contract
performance requirements did not accurately correlate to the contractor
responsibilities defined in the performance work statement and, therefore, were
not properly evaluated.

        Pay Retirees and Annuitants in a Timely Manner. The standard for
this performance requirement states “retiree and annuitant pay (EFT [electronic
fund transfer] and checks) released no later than two (2) days before payday,”
which indicates that ACS Government Services Inc. is responsible for issuing the
actual payments to the retirees and annuitants. However, the performance work
statement accurately states that the Government will make the actual payments,
but that the contractor is responsible for submitting the required information to
the DFAS disbursing office so that the retirees and annuitants will be paid on
time. We believe this performance requirement needs to be rewritten so that the
contractor can be effectively evaluated.

        Process Notifications. This performance requirement was not evaluated
as a separate requirement, but was combined with the “maintain existing accounts
and process changes” requirement, because the CGA concluded that these two
requirements were evaluating the same required service of processing customer
change requests. After reviewing the appropriate sections of the performance
work statement, we determined that the “process notifications” requirement,
which is written “respond to correspondence either within 30 days or before the
next payroll update,” relates to Freedom of Information Act, congressional, and
other requests that come in to DFAS regularly, not just customer change requests.
The requirement covers any reports that have to be supplied to DFAS and the
Military Departments on a regular basis. The requirement also states that
customers must be notified when changes are made to their account. The
“maintain existing accounts and process changes” repeats the requirement of
notifying customers when accounts are established and when changes are made to
their accounts but is also the performance requirement that covers all changes
made to an account, which can be initiated by the customers, the order of the
Service Secretary, and the legislature. We believe the “process notifications”
performance requirement should be evaluated separately and not combined with
the “maintain existing accounts and process changes” requirement.

        Manage and Process Debt Collection Activities. This performance
requirement states “all debt collections identified and corresponding actions
accomplished within 30 calendar days of receipt of initial action.” The CGA
concluded that this requirement was not relevant and did not evaluate contract
performance. However, the performance work statement defines certain debt
collection responsibilities for which the contractor is responsible, such as
collection of any amounts arising from overpayments to retirees and annuitants.
We believe ACS Government Services Inc. should be evaluated on the services it
is required to provide in the performance work statement. We believe this
performance requirement should be rewritten to fit the services for which the
contractor is responsible.


                                    26
           Manage Pay Services Automated Information System. The
    performance requirements summary is written to cover the connectivity service
    that ACS Government Services Inc. is not responsible for because of the option it
    chose. Therefore, the Director, CGA stated the contract performance on this
    requirement was not evaluated. However, after reviewing the performance work
    statement, we determined that it covers several services, in addition to the
    connectivity service, such as system maintenance, security access, system
    administration, and recommending changes to the DFAS Web page when needed.
    We believe the performance requirement should be rewritten to fit the services for
    which the contractor is responsible.

            Complete Government Directed Automated Information System
    Maintenance Changes. This requirement was not evaluated in February 2002
    because the system was the responsibility of DFAS in the previous month. The
    CGA stated that this requirement should be reworked, because the maintenance of
    the system is performed under the firm-fixed price portion of the contract.
    According to the performance work statement, the changes to the system caused
    by legislation, policy, new or existing requirements, system performance issues, or
    enhancements are the actions that fall under this requirement of the contract, not
    the maintenance of the system. We believe the performance requirement should
    be rewritten to fit the services for which the contractor is responsible.

    Measuring Customer Service Performance Requirements. The two customer
    service performance requirements (call center and resolve pay problems) were not
    measurable or identified as critical performance requirements in the contract.

           Provide Customer Service (Call Center). This requirement was not
    evaluated against the established standard, which was 80 percent of customer calls
    responded to within 20 seconds, because the Director, CGA stated DFAS does not
    have a system in place that measures how quickly a call is answered. However,
    the CGA did evaluate contract performance based on whether the calls were
    answered or not, which will be described later in more detail.

            Provide Customer Service (Resolve Pay Problems). This requirement
    states “pay problems resolved within 30 calendar days of notification,” and was
    not evaluated as written because the CGA stated there was not a system in place to
    review the requirement.


Critical Performance Requirements
    Critical Determination. DFAS stated that critical requirements were defined as
    the requirements that must be met by the contractor in order for DFAS to
    accomplish its mission. Critical requirements were identified as the quality and
    customer responsiveness metrics contained in the performance contract between
    the Defense Management Council and DFAS. Under the business area of payroll
    operations in the performance contract, which includes paying retirees and their
    annuitants, four metrics were established. Three of these metrics were covered by
    the four critical requirements in the performance requirements summary. The



                                        27
fourth metric, “resolve all pay problems within 30 calendar days of receipt of
correcting data,” was covered by the two noncritical customer service
requirements in the performance requirements summary.

The performance requirements summary identified the critical performance
requirements and associated pay deductions from the contract price that would be
applied for not meeting the acceptable quality levels. The critical performance
requirements were:
       •   pay retirees and annuitants in a timely manner,
       •   provide accurate pay and entitlement information to retirees and
           annuitants,
       •   establish new accounts, and
       •   maintain existing accounts and process changes.
However, providing accurate and timely responses to customer inquiries should
also be critical elements of the military retired and annuitant pay functions
contract based on the fourth metric of the performance contract.

Statistical Sampling of the Call Center. For a 2-week period ending March 22,
2002, the IG DoD performed 150 random calls to the DFAS Military Retired Call
Center. The objective was to determine the average wait time callers experienced
before having their questions answered. An automated voice system initially
answered the phone call and provided options for the caller. It took
approximately 90 seconds for a caller to get to the option of speaking with a
customer service representative. Once this option was selected the caller was
either placed on hold or was informed that the call could not be answered in a
timely manner. Out of 150 calls, a customer service representative answered
105 calls, or 70 percent. Based on the sample results, we estimate with 95 percent
confidence that the proportion of the successful calls was between 62 percent and
78 percent during that 2-week period. However, the average wait time before a
customer service representative answered the call was 8.1 minutes. Based on the
sample waiting times, with 95 percent confidence, we estimate the average wait
time before a customer service representative answered the call was between
5.8 minutes to 10.3 minutes during that 2-week period.

Performance Benchmarking. Performance benchmarking is a structured,
analytical method of comparing the performance of two or more call centers in
order to determine best practice goals and to ensure competitive functionality.
Benchmarking a call center can provide industry standards on data such as
average speed of answer, average talk time, average calls abandoned, and average
time in queue. Purdue University has a Center for Customer-Driven Quality that
performs benchmarking analysis of call centers. One of their reports states that
the most important caller satisfaction driver is the ability of a call center to answer
callers’ questions on the first call with no transfers and no call-backs.

Prior DFAS Performance. DFAS had a goal to answer 85 percent of all calls
prior to contracting out the military retiree and annuitant pay functions. For the
months of February, March, April, and May 2001, DFAS achieved 76.8 percent,


                                      28
85.2 percent, 89 percent, and 93.2 percent respectively. Figures 2 and 3 show a
comparison of performance between DFAS and the contractor. Figure 2
compares the number of abandoned calls in a 4-month period between DFAS in
2001 and the contractor in 2002.

                                                  Calls Abandoned

                    500,000
  Number of Calls




                    400,000
                    300,000
                                                                                           Incoming
                    200,000
                                                                                           Abandoned
                    100,000
                           0
                                Feb-    Feb- Mar- Mar- Apr-          Apr- May- May-
                                 01      02   01   02   01            02   01   02


Figure 2. Number of Calls Abandoned by DFAS in 2001 and ACS
Government Services Inc. in 2002

Figure 3 shows a comparison of the demand met by DFAS in 2001 and the
contractor in 2002.

                                                 Call Center Demand Met

                     100

                      80
                                        Government
                      60
        Percent




                                                                                        Contractor
                      40

                      20

                       0
                               Feb-01   Mar-01    Apr-01    May-01    Feb-02   Mar-02   Apr-02   May-02

Figure 3. Comparison of Call Center Demand Met Between DFAS and the
Contractor

The DFAS call center system currently in use by the contractor can determine
how many calls were offered to the center and how many were answered. It can
also determine the average wait time for a call to be answered. However, none of
these elements were written in the performance requirements summary. We
believe DFAS should perform a benchmarking analysis to determine areas of
improvement by comparing contractor performance to industry standards.



                                                           29
Performance Standards Evaluation
    DFAS evaluated contractor performance on the three adequate standards as well
    as one of the inadequate standards and the contractor was deficient on three of the
    four evaluated standards.

    Maintain Existing Accounts and Process Changes. The CGA selected a
    random sample of all processed accounts for the month being evaluated. For each
    record in the random sample, the requested action filed by the retiree or annuitant
    was reviewed. The evaluator compared the request with the action the contractor
    performed to determine if the request was fully processed within 30 days. During
    February 2002, DFAS Cleveland and DFAS Denver interpreted the requirement
    differently, which resulted in inconsistent deficiencies. DFAS Cleveland
    evaluated for timeliness and accuracy, while DFAS Denver only evaluated for
    timeliness. The CGA identified the problem and corrected it, evaluating on both
    timeliness and accuracy in March and April. The acceptable quality level in
    FY 2002 was 99.2 percent. ACS Government Services Inc. achieved quality
    levels of 90.4 percent, 86.7 percent, and 88.2 percent for the months of February,
    March, and April, respectively. Therefore, the contracting officer issued
    deficiency reports for all 3 months. On July 2, 2002, the final review and
    comments sessions were completed for the February 2002 data and the contractor
    quality level was adjusted to 91.8 percent, which still did not meet the acceptable
    quality level of 99.2 percent.

    Establish New Accounts. The CGA selected a random sample from all the
    accounts established in the given month. The sample was then reviewed to
    determine the number of accounts that were established in 30 days or less. The
    acceptable quality level for this requirement in FY 2002 was 98.2 percent. ACS
    Government Services Inc. achieved quality levels of 95.0 percent, 94.2 percent,
    and 97.2 percent for the months of February, March, and April 2002, respectively.
    Therefore, deficiency reports were issued for all 3 months. On July 2, 2002, the
    final review and comments sessions were completed for the February 2002 data
    and the quality level was adjusted to 97.2 percent, which still did not meet the
    acceptable quality level of 98.2 percent.

    Provide Customer Service (Call Center). The established standard for this
    requirement is “80 percent of customer calls responded to within 20 seconds.”
    The Director, CGA stated that DFAS does not have the capability to measure the
    requirement based on the established standard. The CGA chose to measure the
    calls based on whether they were answered or not. The acceptable quality level
    set for this requirement was 80 percent for the life of the contract. ACS
    Government Services Inc. achieved quality levels of 33.6 percent, 58.3 percent,
    and 79.2 percent for the months of February, March, and April 2002, respectively.
    Therefore, deficiency reports were issued for all 3 months.

    Provide Accurate Pay and Entitlement Information to Retirees and
    Annuitants. The contractor is responsible for maintaining the system that
    processes pay and benefits information. Errors found in February 2002 were not
    held against the contractor, because the CGA stated the system was the



                                        30
    responsibility of DFAS at the time of the error. The CGA stated that there were
    no errors found in March and April 2002. Therefore, deficiency reports were not
    issued on this requirement.


Conclusion
    A properly written and executed performance requirements summary can provide
    a high degree of confidence in the assessment of contract performance. However,
    only 3 of 10 performance requirements for the military retired and annuitant pay
    functions contract could be evaluated against the established standards, and a
    fourth requirement was evaluated but not against the established standard. The
    reasons given why the remaining requirements were not measured were that the
    contractor was not responsible for the required service or that DFAS was not able
    to measure the requirement. In addition, the two performance requirements for
    customer services were not defined as a critical element of contractor
    performance, but clearly they meet the definition of critical, as defined by DFAS
    in its Performance Contract with the Defense Management Council. Thus,
    contractor performance on the military retired and annuitant pay functions
    contract cannot be adequately and effectively measured and holding the contractor
    accountable for inadequate performance would be difficult.


Recommendations and Management Comments
    C. We recommend that the Director, Defense Finance and Accounting
    Service:

           1. Rewrite the performance requirements summary to include all
    contractor responsibilities defined in the performance work statement,
    including a method to adequately measure the requirements.

    Management Comments. The Director, Defense Finance and Accounting
    Service concurred and stated that DFAS would rewrite the performance
    requirements summary to include all mission critical services defined in the
    performance of work statement by March 31, 2003.

           2. Conduct a benchmarking study on the two customer service
    requirements to identify the performance standards needed to be measured
    to ensure effective performance and change the standards for customer
    services to critical.

    Management Comments. The Director, Defense Finance and Accounting
    Service concurred and stated DFAS will develop the requirements for a
    solicitation for a benchmarking study in the call management area by March 31,
    2003. He stated DFAS would also clearly define what constitutes a pay problem
    and develop a methodology to measure performance against the standard by
    March 31, 2003.



                                        31
       3. Renegotiate the performance requirements summary in contract
MDA220-01-C-002 based on the analysis in Recommendation C.1. and the
study in Recommendation C.2.

Management Comments. The Director, Defense Finance and Accounting
Service concurred and stated that renegotiation of the performance requirements
summary will commence immediately after the results of the benchmarking study
referenced in Recommendation C.2. are received and approved. He also stated
that completion should occur within 60 days of commencement of negotiations.




                                   32
Appendix A. Scope and Methodology
   We reviewed the OMB Circular A-76 process on the DFAS military retired and
   annuitant pay functions cost comparison. We evaluated the performance work
   statement, MEO in-house cost estimate totaling $366.6 million, and other
   supporting documentation to determine whether DFAS followed Federal and DoD
   guidance for cost comparison competitions. We discussed the competitive
   sourcing policies with the Office of the Deputy Under Secretary of Defense
   (Installations and Environment) and OMB officials. We reviewed total operation
   and general and administrative overhead costs of $33.7 million. We reviewed
   DFAS general and administrative cost data for the Financial Operations Working
   Capital Fund for FYs 1998, 1999, 2000, 2001, and for October 2001 through
   March 2002. We interviewed the Directors or Deputy Directors of the
   Accounting, Finance, Human Resources, and Information and Technology
   divisions within the DFAS headquarters to determine if there was any reduction in
   workload due to the award of the contract. We reviewed headquarters personnel
   data as of October 2001. We reviewed the DFAS contracts with MEVATEC
   Corporation and ACS Government Services Inc. We reviewed contractor
   performance documents for February, March, and April 2002. We compared
   contract performance on call center demand met for February, March, April, and
   May 2002 with DFAS performance in February, March, April, and May 2001.

   We did not review management controls over the DFAS public/private
   competition of the military retired and annuitant pay functions because the audit
   was conducted in response to a congressional request.

   We performed this audit from December 2001 through November 2002 in
   accordance with generally accepted government auditing standards. Our review
   determined that the initial IG DoD independent review of the public/private
   competition of the military retired and annuitant pay functions did not identify a
   calculation error in the in-house cost estimate. We reported on the initial IG DoD
   independent review in IG DoD Report No. D-2001-167, “Independent Review of
   the Cost Comparison Study of Military Retired and Annuitant Pay Functions,”
   August 2, 2001. We also reported on a review of the administrative appeal in
   Report No. D-2002-023, “Independent Review of the Administrative Appeal
   Authority Adjustments for Transition Costs to the Military Retired and Annuitant
   Pay Functions Cost Comparison Study,” December 11, 2001. IG DoD Reports
   No. D-2001-167 and No. D-2002-023 were retracted. At the start of this review,
   we considered the prior independent review work and determined that the
   IG DoD personnel involved were independent and impartial to conduct this audit
   in accordance with Government Auditing Standards 3.11. However, the
   identification of the calculation error presented an unexpected independence
   issue. IG DoD personnel involved in the initial review and the review on the
   administrative appeal were also involved in this review. Knowledgeable third
   parties may consider the independence of these auditors to be impaired.

   In relation to the statistical sample of the DFAS Military Retired Call Center
   (finding C); the target population was the telephone calls made by retirees and
   annuitants to the contractor-supplied telephone call center at DFAS. Available



                                       33
    statistics indicated that there were up to 40,000 calls per day coming into the call
    center. Given the high call volume, we did not expect the addition of 10-25 calls
    per day to be either obtrusive or to change the daily workload.
    The main goals of our call center survey were to estimate how long a caller must
    wait to receive phone support and the percentage of the unsuccessful calls.
    Unsuccessful calls were defined as calls that were either disconnected or the
    waiting time was too long. In order to reduce the staff time in waiting, the
    observations were censored. That is, waiting time only up to 30 minutes was
    recorded. We made a random schedule of 150 calls during the 2-week time period
    of March 11, 2002, through March 22, 2002, to the DFAS retired and annuitant
    customer service center. We used a one-parameter exponential distribution to
    project the average waiting time and its confidence interval. A binomial model
    was used to project the proportion of the unsuccessful calls.
    Use of Computer-Processed Data. We relied on computer-processed cost
    comparison data calculated by the DoD-approved COMPARE software program.
    This Air Force-developed program was released in November 1994 and was the
    software generally accepted for performing OMB Circular A-76 cost comparison
    studies by all the Military Departments and Federal agencies. On February 29,
    2000, DoD interim guidance mandated use of COMPARE∗ for all DoD A-76 cost
    comparisons. Audits of the program by the Army Audit Agency concluded
    program cost comparison computations adequately documented costs in
    accordance with the OMB Circular A-76 Revised Supplemental Handbook
    guidance. Nothing came to our attention in this review that caused us to doubt the
    reliability of the computer-processed data.
    Use of Technical Assistance. Personnel in the Quantitative Methods Division,
    Office of the Assistant Inspector General for Auditing of the Department of
    Defense developed the statistical sampling plan and selected the sample for this
    audit.
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Infrastructure Management high-risk area and the Contract
    Management high-risk area.


Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector General
    of the Department of Defense have issued numerous reports discussing the OMB
    Circular A-76 process, OMB Circular A-76 overhead rates, and public/private
    competitions. Unrestricted General Accounting Office reports can be accessed at
    http://www.gao.gov. Unrestricted Inspector General of the Department of
    Defense reports can be accessed at http://www.dodig.osd.mil/audit/reports.




    ∗
         Subsequently, a contractor hired by the Air Force Manpower Innovation Agency, Randolph Air
        Force Base, Texas, developed win.COMPARE2, a Windows-based personal computer
        application that replaced COMPARE in 2001.
                                               34
Appendix B. Responses to Issues Raised by
            Congressional Inquiry
Issue 1. Cost Comparison Calculations
    The December 7, 2001, letter from Representative Kucinich’s staff stated:
                                      “[The AFGE local 3283 claimed in their appeal that] DFAS’ cost
                                      comparison calculations reveal $15 million in savings over the
                                      contractor bid that the in-house team would provide during the first five
                                      years of the performance period. [This would require investigation] to
                                      determine whether the contracting officials at DFAS were explicitly or
                                      implicitly aware, prior to the ‘Certification of Approval of Performance
                                      Period in Excess of 5 Years’ that any savings the contractor would
                                      provide would be realized in years five through ten of the performance
                                      period.”

    Audit Results. DFAS would not have had any knowledge of the contractor’s
    proposal or the Government’s in-house offer prior to approving the extension of
    the performance period from 5 to 10 years. In addition, OMB Circular A-76
    policy does not allow for a year-by-year cost comparison of the selected private
    sector offer with the in-house offer; therefore, DFAS correctly compared the total
    costs of the entire performance period for this public/private competition.
    However, we do agree that a year-by-year cost comparison shows a $15 million
    difference in favor of the Government over the first 5 years—in fact, the
    comparison shows that the Government does not realize any savings until year 9
    of contract performance. However, once the in-house cost estimate was corrected
    for the economic price adjustment error (see finding A), the cost comparison
    shows a savings for the entire performance period in favor of the Government.
    The following figure shows the cumulative annual cost difference between the
    in-house cost estimate and the contractor proposal for the cost comparison in
    Table C-1, excluding the $10 million conversion differential.

                                20

                                15
        Dollars (in millions)




                                10

                                 5

                                 0
                                       Trans.   1       2      3         4     5      6         7    8      9     10
                                 -5
                                -10

                                -15
                                                                   Performance Period (Years)



    Cumulative Annual Cost Difference Between the In-House Cost Estimate
    and the Contractor Proposal

                                                                    35
    Net Present Value. There is no requirement to consider net present value for
    OMB Circular A-76 cost comparisons. We believe consideration of net present
    value is particularly important for those competitions exceeding 3 years. The
    longer the period of performance, the greater the impact net present value will
    have on ensuring the best decisions are made for the benefit of the Government
    and the taxpayers. Application of the net present value concept (discount rate of
    4.2 percent) to the public/private competition for the military retired and annuitant
    pay functions, shows the in-house cost estimate was $5.3 million ($297.3 million
    versus $302.6 million) less than the contractor proposal, including the $10 million
    conversion differential. We provided comments to OMB to consider net present
    value in the proposed revision to OMB Circular A-76.


Issue 2. Economic Price Adjustment Provision
    The December 7, 2001, letter from Representative Kucinich’s staff stated that
    adding an economic price adjustment (EPA) provision in the final contract would
    suggest fiscal irresponsibility on the part of DFAS.

    Audit Results. FAR 16.203, “Fixed-Price Contracts with Economic Price
    Adjustment,” states that a fixed-price contract with an EPA provides for adjusted
    revisions of the stated contract price upon the occurrence of specified
    contingencies. An EPA is used when it is necessary either to protect the
    contractor and the Government against significant fluctuations in labor or material
    costs or to provide for contract price adjustment in the event of changes in the
    contractor established prices. The EPA clause was not in the solicitation, but was
    in the ACS Government Services Inc. proposal and when DFAS accepted the
    proposal, they accepted the EPA clause. Due to the fact that this was a long-term
    contract, we did not question the decision to include the EPA clause.


Issue 3. Unfinanced Requirements
    The December 7, 2001, letter from Representative Kucinich’s staff also expressed
    concern about a possible $70 million “unfinanced requirement” representing
    expenditures that DFAS would be required to make in order to contract out the
    military retired and annuitant pay functions.

    Audit Results. We interviewed the Deputy Director of Resource Management,
    DFAS Denver, who stated that there was an “unfinanced requirement” identified
    for the military retired and annuitant pay functions in the DFAS internal budget
    review process. The “unfinanced requirement” was for contract transition costs.
    The Deputy Director stated that as of March 2002 the requirement no longer
    existed.




                                         36
     Appendix C. Cost Comparison Forms

                   Table C-1. Military Retired and Annuitant Pay Functions
                                    Cost Comparison Form
Line
Item Cost Factors                                    Cleveland   Cleveland       Denver
In-House Performance Costs                           Transition Options Years Options Years    Total
  1 Personnel                                          $998,351 $270,616,825     $9,251,342 $280,866,518
  2 Material & Supply                                     10,292     1,884,642            0    1,894,934
  3 Other Specifically Attributable
          Depreciation                                          0              0            0             0
          Rent                                                  0              0            0             0
          Maintenance and Repair                                0      3,514,619            0     3,514,619
          Utilities                                             0              0            0             0
          Insurance                                        13,226      1,965,372       64,760     2,043,358
          Travel                                                0              0            0             0
          Other Costs                                           0     17,108,537            0    17,108,537
  4 Overhead                                              119,802     32,474,019    1,110,161    33,703,982
  5 Cost of Capital                                         6,845              0            0         6,845
  6 One-Time Conversion                                         0              0            0             0
  7 Additional Costs                                      894,560     26,588,873            0    27,483,433

 8   Total In-House costs                              2,043,076     354,152,887   10,426,263   366,622,226
Contract or Inter-Service Support Agreement (ISSA)
 Performance Costs
  9 Contract or ISSA Price                                                                      346,432,288
 10 Contract Administration                               529,809      9,826,945           0     10,356,754
 11 Additional Costs                                            0              0           0              0
 12 One-Time Conversion Costs                             650,304              0      22,760        673,064
 13 Gain on Assets                                              0              0           0              0
 14 Federal Income Tax (Deduct)                                                                   2,771,459

 15 Total Contract or ISSA Costs (Lines 9 + 10 + 11+ 12 - 13 - 14)                              354,690,647

Decision
 16 Minimum Conversion Differential                   1,445,573       10,000,000      925,134    10,000,000
 17 Adjusted Total Cost of In-House Performance       2,043,076      354,152,887   10,426,263   366,622,226
 18 Adjusted Total Cost of Contractor Performance (Lines 15 + 16)                               364,690,647

 19 Decision - Line 18 Minus Line 17                                                            (1,931,579)

 20 Cost Comparison Decision: Accomplish Work
    In-House (+)
    Contract ( -)                                                                               (1,931,579)




                                                     37
                  Table C-2. Military Retired and Annuitant Pay Functions
                  Cost Comparison Form With Economic Price Adjustments
Line
Item Cost Factors                                    Cleveland   Cleveland       Denver
In-House Performance Costs                           Transition Options Years Options Years    Total
  1 Personnel                                          $998,351 $242,501,167     $9,121,570 $252,621,088
  2 Material & Supply                                     10,292     1,884,642            0    1,894,934
  3 Other Specifically Attributable
          Depreciation                                          0              0            0             0
          Rent                                                  0              0            0             0
          Maintenance and Repair                                0      3,514,619            0     3,514,619
          Utilities                                             0              0            0             0
          Insurance                                        13,226      1,768,562       63,851     1,845,639
          Travel                                                0              0            0             0
          Other Costs                                           0     17,108,537            0    17,108,537
  4 Overhead                                              119,802     29,100,140    1,094,588    30,314,530
  5 Cost of Capital                                         6,845              0            0         6,845
  6 One-Time Conversion                                         0              0            0             0
  7 Additional Costs                                      894,560     26,588,873            0    27,483,433

 8   Total In-House costs                              2,043,076     322,466,540   10,280,009   334,789,625
Contract or Inter-Service Support Agreement (ISSA)
  Performance Costs
  9 Contract or ISSA Price                                                                      346,432,288
 10 Contract Administration                               529,809      9,826,945           0     10,356,754
 11 Additional Costs                                            0              0           0              0
 12 One-Time Conversion Costs                             650,304              0      22,760        673,064
 13 Gain on Assets                                              0              0           0              0
 14 Federal Income Tax (Deduct)                                                                   2,771,459

 15 Total Contract or ISSA Costs (Lines 9 + 10 + 11+ 12 - 13 - 14)                              354,690,647

Decision
 16 Minimum Conversion Differential                   1,445,573       10,000,000      824,609    10,000,000
 17 Adjusted Total Cost of In-house Performance       2,043,076      322,466,540   10,280,009   334,789,625
 18 Adjusted Total Cost of Contractor Performance (Lines 15 + 16)                               364,690,647

 19 Decision - Line 18 Minus Line 17                                                             29,901,022

 20 Cost Comparison Decision: Accomplish Work
    In-House (+)                                                                                29,901,022
    Contract ( -)




                                                     38
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Installations and Environment)
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services




                                          39
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

Honorable Dennis J. Kucinich, U.S. House of Representatives




                                          40
Deputy Under Secretary of Defense
(Installations and Environment) Comments




                     41
42
Defense Finance and Accounting Service
Comments




                      43
44
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the
Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Robert K. West
Henry F. Kleinknecht
Anella J. Oliva
Catherine A. Annulis
Andrew D. Greene
Stephanie N. Lay
H. David Barton
Kandasamy Selvavel
Lisa C. Rose-Pressley
